<html>
<title> - [H.A.S.C. No. 114-1] COMMITTEE ORGANIZATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                          [H.A.S.C. No. 114-1]

                         COMMITTEE ORGANIZATION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD

                            JANUARY 14, 2015

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                ___________
                                
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
92-849                       WASHINGTON : 2015                         
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e1f6e9c6e5f3f5f2eee3eaf6a8e5e9eba8">[email&#160;protected]</a>  
                                     




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
                  Robert L. Simmons II, Staff Director
             Zach Steacy, Director, Legislative Operations
                         COMMITTEE ORGANIZATION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, January 14, 2015.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Let me 
welcome all new and returning members to the House Armed 
Services Committee. We are going to have votes here in a few 
minutes, so I don't want to have too much conversation here to 
begin with, but I just want to say that this committee has a 
bipartisan tradition of providing for our country's defense.
    And that plaque right there down on the front reminds us of 
Article I, Section 8, and that it is the Congress that has the 
power to raise and support armies, to provide and maintain a 
navy, to make rules for the government and regulation of land 
and naval forces. That is a substantial responsibility the 
Constitution puts on our shoulders, and I know that all members 
of this committee feel that responsibility.
    The portrait right there to the right of the television is 
Carl Vinson, for whom this committee room is named. And he 
said, we have a moral obligation to ensure that troops that go 
into danger have the best equipment and training in the world. 
And I know that all of us feel that responsibility pretty 
acutely as well.
    We have got a lot of work cut out for us. The world is a 
complex and dangerous place. But I am very optimistic that the 
members of this committee are going to rise to meet our 
responsibility this year, and I look forward to it. We have got 
a lot of talent on this committee, and we are going to do a lot 
of good.
    With that, let me yield to the distinguished ranking 
member, the gentleman from Washington, Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And welcome also to all 
returning and new members.
    And I agree with everything the chairman said about this 
committee, how important it is, the work we do, and what a 
privilege it is to serve on it.
    I am very proud about two things about this committee. 
Number one, I always say that it is the most bipartisan 
committee in Congress, and of course always add quickly that is 
not very hard to accomplish. But we are even more bipartisan 
than that. We work closely together on these issues in a way 
that no other committee I have ever served on does. And I think 
that gives us a real opportunity on this committee to get 
things done.
    And that is the second thing about this committee, is we 
get something done every year, which, gosh, not even the 
appropriators can say anymore. Fifty-three straight years we 
have produced a National Defense Authorization Act, which is an 
incredibly important piece of legislation, that basically makes 
sure that the men and women who are serving and defending our 
country have the training, equipment, and everything they need 
to perform the missions that we ask them to perform.
    And I think those two things are connected, the 
bipartisanship and the fact that we pass that bill every year. 
It is amazing what you can get done when you know you have to 
get it done, when there is not an option of just walking away. 
We find a way to get it done.
    I think, also, the last thing I want to say about this 
committee is we are blessed with the most amazing staff in 
Congress, on both sides, bipartisan folks do an unbelievable 
amount of work. And the bill usually is roughly 1,500, 1,600 
pages, spend somewhere between $500 billion and $600 billion, 
and has an endless amount of detail, which even the brightest 
amongst you here on the committee, I don't think you could 
truthfully say that you know absolutely every word that is in 
it. It is difficult and complicated. But the staff takes care 
of us and they take care of the bill and they do an incredible 
job. So give the staff a round of applause to get things 
started out here and thank them for the great work they do.
    And actually there is one more thing I want to say. I have 
had the privilege of working with Chairman Thornberry for a 
long time in this committee. We were chair and ranking on a 
subcommittee for a while a few years back. This committee could 
not have a better chairman, both to uphold those traditions 
that I just mentioned and just to bring a level of expertise 
and commitment to the issues in national security. So it is a 
privilege to be working with Mac in his new capacity as 
chairman. I congratulate him on that. Your caucus made an 
outstanding choice. So I look forward to a productive year, and 
with that I yield back.
    The Chairman. Well, let me thank you, I appreciate those 
kind words at the end. It is true, Mr. Smith and I have worked 
together in various capacities over the years, and I have no 
doubt in this capacity we are going to work really well 
together. We may not always agree, but I have tremendous 
respect for his insights and his commitment to the people who 
serve our country. So I look forward to that as well.
    Normally at this meeting we take some time to introduce the 
new members of the committee. Because we have a short timeframe 
today, I don't want to hurry through that or not get our 
essential business done. So we are going to forego that this 
time. We are going to do that for the first hearing that we 
have where we properly introduce the new members of the 
committee. But we are really pleased to have you all with us.
    And so, we are going to go ahead and get on to business. 
And I want to call up Committee Resolution Number 1, regarding 
the committee rules for the 114th Congress.
    The clerk shall report the resolution.
    Ms. Simler. Committee Resolution Number 1: Resolved, That 
the Committee on Armed Services, U.S. House of Representatives, 
adopt the committee rules for 114th Congress, which are stated 
in the copy distributed to each Member.
    The Chairman. These rules are largely the same as they have 
been before. We have worked with Mr. Smith and his folks on a 
few changes. I want to ask unanimous consent that the 
resolution be considered as read and therefore open for 
amendment at any point. Without objection, it is so ordered.
    [The following information was submitted for the record.]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. By way of discussion, these rules are 
largely the same that we have operated before. There are three 
subcommittee jurisdictional changes. One is to move the 
Merchant Marine Academy to the Personnel Subcommittee, where 
all the other academies are. A second one is to move the 
Department of Energy nonproliferation programs and the CTR 
[Cooperative Threat Reduction] program to the Strategic Forces 
Subcommittee so that that is where all the other DOE/NNSA 
[Department of Energy/National Nuclear Security Administration] 
programs are. And finally, the rules return intelligence policy 
and coordination to the full committee, but I really want to 
work with all members to increase the exposure and the 
expertise this committee has to the Intelligence Community for 
military intelligence, and I think we can do that from the full 
committee level.
    There is also one other change in the rules, and that is 
required by the House rules changes which say that we only have 
to give one activity report per Congress rather than two. And 
that is about the sum of it.
    Is there any further discussion of the committee rules?
    Are there any amendments to the committee rules?
    If there are no amendments, the chair recognizes the 
gentleman from Virginia, Mr. Forbes, for the purpose of 
offering a motion.
    Mr. Forbes. Mr. Chairman, I move to adopt Committee 
Resolution Number 1 concerning the committee rules.
    The Chairman. The question occurs on the motion of the 
gentleman from Virginia, Mr. Forbes.
    So many as are in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it. A quorum 
being present, the motion is adopted. And without objection, a 
motion to reconsider is laid upon the table.
    Next order of business, Committee Resolution Number 2 
regarding the committee's oversight plan for the 114th 
Congress. I call up Committee Resolution Number 2 and I ask the 
clerk to report the resolution.
    Ms. Simler. Committee Resolution Number 2: Resolved, That 
the Committee on Armed Services, U.S. House of Representatives, 
adopt the committee oversight plan for the 114th Congress, a 
copy of which has been distributed to each Member.
    The Chairman. I ask unanimous consent that the resolution 
be considered as read and open for amendment at any point. 
Without objection, it is so ordered.
    [The following information was submitted for the record.]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]           
        
    The Chairman. Just, again, by way of explanation, 
everybody got a copy of this in your office last Friday. This 
is required by the House rules. Obviously, this is very general 
and covers a lot of territory. We will have to adjust our 
oversight plan depending on what happens in the world and the 
events and the issues that come to our attention. But as a 
starting place, trying to get all the bases covered, that is 
what we have tried to work together with both sides and 
accomplish.
    Is there any discussion of the oversight plan or any 
amendments to the resolution? If not, I would yield to Mr. 
Forbes for the purpose of a motion.
    Mr. Forbes. Mr. Chairman, I move to adopt Committee 
Resolution Number 2 concerning the committee oversight plan.
    The Chairman. The question now occurs on the motion of the 
gentleman from Virginia, Mr. Forbes.
    So many as are in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it. A quorum 
being present, the motion is adopted. And without objection, a 
motion to reconsider is laid upon the table.
    Next order of business, I call up Committee Resolution 
Number 3 regarding the committee's security procedures for the 
114th Congress, which the clerk shall report.
    Ms. Simler. Committee Resolution Number 3: Resolved, That 
the Committee on Armed Services, U.S. House of Representatives, 
adopt the committee security procedures for the 114th Congress, 
a copy of which has been distributed to each Member.
    The Chairman. Again, I ask unanimous consent that the 
resolution be considered as read and open for amendment at any 
point. Without objection, it is so ordered.
    [The security procedures are maintained in the committee 
files.]
    The Chairman. Most of the security procedures of course are 
the way they have been before. We had a few changes that came 
about because of situations we were in last Congress just to 
facilitate all the members being able to have access to 
classified documents.
    The one I want to bring to members' attention which is 
different is always before in our security procedures, members 
could not take notes during classified briefings. Well, 
sometimes you want to take notes and go back and refer to them. 
So now you can take notes during classified briefings, but you 
can't carry it out of the room, you have to hand those notes to 
a staff member, and they will keep it in the safe for you, and 
then you can go back and refer to them.
    Now, you know, we will have to do this right, but I think 
it is important for members to be able to take classified notes 
and for you to be able to go back and refer to them as you 
want. So that is one security procedure that will affect 
somewhat the way we carry on our business here. There are a 
handful of others, but most of it is just to make it easier for 
us to have access to classified material.
    Is there any further discussion or questions about the 
security procedures? If not, I yield to the gentleman from 
Virginia, Mr. Forbes, for the purpose of a motion.
    Mr. Forbes. Mr. Chairman, I move to adopt Committee 
Resolution Number 3, the security procedures for the 114th 
Congress.
    The Chairman. The question occurs on the motion of the 
gentleman from Virginia, Mr. Forbes.
    So many as are in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it. A quorum 
being present, the motion is adopted. And without objection, a 
motion to reconsider is laid upon the table.
    Final order of business, call up Committee Resolution 
Number 4, appointing committee staff for the 114th Congress.
    The clerk shall report the resolution.
    Ms. Simler. Committee Resolution Number 4: Resolved, That 
the persons listed on the sheet distributed to the Members, and 
such other personnel as may be required by the committee within 
the limits and terms authorized under the Rules of the House of 
Representatives, are hereby appointed to the staff of the 
Committee on Armed Services, U.S. House of Representatives, for 
the 114th Congress, it being understood that according to the 
provisions of law, the Chairman will fix the basic salary per 
annum.
    The Chairman. Without objection, the resolution is 
considered as read and open for amendment at any point.
    [The following information was submitted for the record.]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
      
    The Chairman. Just by way of discussion, this is 
something the House rules require us to do.
    I want to just emphasize what Mr. Smith said. We are unique 
in the Congress in that our staffs are integrated. And so there 
is a lot of expertise on this staff available to all members. 
And I think that one of the things we can do is make better use 
of the resource that we have. And so I want to encourage 
members to do that by way of personal briefings and to take 
advantage of the tremendous opportunities that are before us 
with the staff. And much to their relief, this is not subject 
to amendment or else we could start talking people.
    Is there any further discussion on the committee 
resolution? If not, I yield to the gentleman from Virginia, Mr. 
Forbes, for the purpose of a motion.
    Mr. Forbes. Mr. Chairman, I move to adopt Committee 
Resolution Number 4 regarding committee staffing for the 114th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from Virginia, Mr. Forbes.
    So many as are in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it. A quorum 
being present, the motion is adopted. And without objection, a 
motion to reconsider is laid upon the table.
    Without objection, committee staff is authorized to make 
technical and conforming changes to reflect the action of the 
committee in adopting Committee Resolutions 1 through 4.
    And if I could just make one other point. This is the 
largest committee in the Congress. The challenge for me is to 
be fair, giving every member the chance to participate, and to 
put all of that together with so many folks. So we are going to 
be trying some things a little differently than we have done in 
the past.
    I am anxious to have your suggestions. I know Mr. Smith is, 
as well. We want to facilitate all members being able to 
participate as much as you want in this committee. Now, as a 
result of that, I am going to have to be strict about the 5-
minute rule and time limits, because when you have got this 
many people you just have to enforce those time limits to give 
the next folks a chance. But beyond that, I look forward to 
having discussions with you all and hearing any suggestions 
that you may have on how we can facilitate all members being 
able to participate.
    I would yield to the gentleman from Washington for any 
final comments that he might have.
    Mr. Smith. I have none. I think you covered it all very, 
very well. And I think we are going to have a great year. I 
look forward to working with all of you. Thank you.
    The Chairman. I agree with that. Thank you all for being 
here. Now we can get to work. No further business. The 
committee stands adjourned subject to the call of the chair.
    [Whereupon, at 10:20 a.m., the committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
